                                   OFFICE OF INSPECTOR GENERAL
                                    OFFICE OF INVESTIGATIONS

                           CLOSEOUT MEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted from the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have committed embezzlement, theft or
diversion of grant funds. The university's2 investigation found that the subject charged $         for
student salary to the grant: which should have been charged to personal consulting. The University
returned the funds to the grant and is addressing this and other problems with the subject separately.

Accordingly this case is closed.




OIG-02-2
